ose
|

nome  COCKLE

5 E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B Ba fe contact@cocklelegalbriefs.com
st.19
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850
No. 20-651

COOK CHILDREN’S MEDICAL CENTER,
Petitioner,
Ve
T.L., a MINOR, ET AL.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICI CURIAE
TEXAS ALLIANCE FOR LIFE, TEXAS CATHOLIC CONFERENCE OF BISHOPS,
AMERICAN MEDICAL ASSOCIATION, AMERICAN ACADEMY OF PEDIATRICS, TEXAS
MEDICAL ASSOCIATION, TEXAS NURSES ASSOCIATION, TEXAS HOSPITAL
ASSOCIATION, CATHOLIC HEALTH ASSOCIATION OF TEXAS, BAYLOR SCOTT AND
WHITE HEALTH, TEXAS ORGANIZATION OF RURAL AND COMMUNITY HOSPITALS,
COALITION OF TEXANS WITH DISABILITIES, AND TEXAS ALLIANCE FOR PATIENT
ACCESS, ET AL. IN SUPPORT OF PETITIONER in the above entitled case complies with the
typeface requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook
12 point for the text and 10 point for the footnotes, and this brief contains 5139 words, excluding

the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 14th day of December, 2020.
1 am duly authorized under the laws of the State of Nebraska to administer oaths

= Kense 9. Loos Ondaoch. Ohl

My Comm. Exp. September 5, 2023
Affiant

 

40396
